September 11, 2007


INFORMATION MEMORANDUM TO THE SECRETARY



From:                 Calvin L. Scovel III
                      Inspector General
                      X61519

Prepared by:          David A. Dobbs
                      Principal Assistant Inspector General for Auditing and Evaluation
                      X61427

Subject:              Inspector General Announces DOT’s FY 2008 Top Management
                      Challenges

________________________________________________________________________

SUMMARY

The Office of Inspector General (OIG) has identified nine top management challenges for
the Department of Transportation (DOT) for fiscal year (FY) 2008. In considering the
items for this year’s list, we continue to focus on the Department’s key strategic goals to
improve transportation safety, capacity, and efficiency.

When issued, this report and the Department’s response will be incorporated into the
DOT Performance and Accountability Report, as required by law.


BACKGROUND

The issues covered in this year’s report are listed below and will be presented in greater
detail in the final report.

   •    Continuing to Enhance Oversight to Ensure the Safety of an Aging Surface
        Transportation Infrastructure and to Maximize the Return on Investments in
        Highway and Transit Infrastructure Projects

   •    Addressing Long- and Short-Term Challenges for Operating, Maintaining, and
        Modernizing the National Airspace System
   •   Reaching Consensus on the Amounts and Sources of Revenue Needed to Support
       the Highway Trust Fund in the Next Reauthorization

   •   Refining and Implementing the National Strategy to Reduce Congestion on
       America’s Transportation System

   •   Improving the Oversight of Surface Safety Programs and Strengthening
       Enforcement to Save Lives

   •   Continuing to Make a Safe Aviation System Safer

   •   Strengthening the Protection of Information Technology Resources, Including the
       Critical Air Traffic Control System

   •   Managing Acquisition and Contract Operations More Effectively to Obtain
       Quality Goods and Services at Reasonable Prices

   •   Reforming Intercity Passenger Rail


FOLLOW-UP

None required.


cc: Deputy Secretary
    Chief of Staff
    Assistant Secretary for Budget and Programs and Chief Financial Officer
    OST Audit Liaison, M-1
